Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  COMPARISON OF AVERAGE
 SALES PRICES AND AVERAGE
  MANUFACTURER PRICES:
   AN OVERVIEW OF 2011




                    Daniel R. Levinson
                     Inspector General

                      January 2013
                     OEI-03-12-00670
EXECUTIVE SUMMARY: COMPARISON OF AVERAGE SALES PRICES AND
AVERAGE MANUFACTURER PRICES: AN OVERVIEW OF 2011
OEI-03-12-00670

WHY WE DID THIS STUDY
When Congress established average sales prices (ASP) as the primary basis for Medicare
Part B drug reimbursement, it also mandated that the Office of Inspector General (OIG)
compare ASPs with average manufacturer prices (AMP) and directed the Centers for
Medicare & Medicaid Services (CMS) to lower reimbursement for drugs with ASPs that
exceed AMPs by a threshold of 5 percent. This is OIG’s 29th report comparing ASPs to
AMPs since the ASP reimbursement methodology was implemented in January 2005.
CMS has yet to make any changes to Part B drug reimbursement as a result of OIG’s
studies. However, the agency published a final rule in November 2012 that specifies the
circumstances under which AMP-based price substitutions will occur beginning in 2013.

HOW WE DID THIS STUDY
We identified drug codes that exceeded the 5-percent threshold in one or more quarters of
2011 and estimated the financial impact of lowering reimbursement amounts for those
drugs. We also identified drug codes that were removed from our pricing comparison in
one or more quarters of 2011 because they did not have AMP data.

WHAT WE FOUND
In 2011, 58 drug codes exceeded the 5-percent threshold in 1 or more quarters when
complete AMP data were used. If reimbursement amounts for these 58 codes had been
lowered to 103 percent of the AMPs during the applicable quarter(s), Medicare
expenditures would have been reduced by an estimated $14.4 million over 1 year. Under
CMS’s proposed price substitution policy, reimbursement amounts for over 40 percent of
these codes would have been reduced, saving an estimated $7 million over 1 year. An
additional 24 drug codes met the 5-percent threshold when partial AMP data were used.
Furthermore, at least 9 percent of drug codes were excluded from OIG’s pricing
comparisons in each quarter of 2011 because none of the associated drug products had
AMP data.

WHAT WE RECOMMEND
To ensure the appropriateness of Medicare Part B payments, we recommend that CMS
(1) finalize the price substitution policy in the proposed rule and lower Medicare
reimbursement amounts for drugs that exceed the 5-percent threshold, (2) consider
expanding the price substitution policy to include all Healthcare Common Procedure
Coding System (HCPCS) codes with complete AMP data, (3) consider expanding the
price substitution policy to include certain HCPCS codes with partial AMP data, and
(4) consider seeking a legislative change to require manufacturers of Part B-covered
drugs to submit both ASPs and AMPs. CMS concurred with our first recommendation
and did not concur with the remaining three.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings......................................................................................................10
           In 2011, 58 HCPCS codes exceeded the 5-percent threshold
           in 1 or more quarters when complete AMP data were used ...........10
           In 2011, 24 HCPCS codes exceeded the 5-percent threshold
           in 1 or more quarters when partial AMP data were used ............... 11
           Because of NDCs without AMP data, the number of pricing
           comparisons performed in 2011 was reduced by at least
           9 percent in each quarter ...............................................................12
Conclusion and Recommendations ............................................................14
           Agency Comments and Office of Inspector General Response.....16
Appendixes ................................................................................................18
           A: The Equation Used by the Centers for Medicare & Medicaid
           Services To Calculate Volume-Weighted Average Sales
           Prices ..............................................................................................18
           B: Detailed Methodology for Calculating Volume-Weighted
           Average Manufacturer Prices for 2011 ..........................................19
           C: Detailed Methodology for Estimating Savings for Drug
           Codes That Exceeded the 5-Percent Threshold in 2011 ................21
           D: Fifty-Eight Drug Codes That Exceeded the 5-Percent
           Threshold in 2011 When Complete Average Manufacturer
           Price Data Were Used ....................................................................23
           E: Fifteen Drug Codes With Partial Average Manufacturer
           Price Data for Which Price Substitutions May Be Warranted .......25
           F: Agency Comments ....................................................................26
Acknowledgments......................................................................................29
                  OBJECTIVES
                  1. To identify drugs with average sales prices (ASP) that exceeded
                     average manufacturer prices (AMP) by at least 5 percent in any quarter
                     of 2011.
                  2. To examine the impact of missing and unavailable AMP data on the
                     Office of Inspector General’s (OIG) pricing comparisons in 2011.

                  BACKGROUND
                  The Social Security Act (the Act) mandates that OIG compare ASPs with
                  AMPs. 1 The Act states that if OIG finds that the ASP for a drug exceeds
                  the AMP by a certain percentage (5 percent through 2012), the Secretary
                  of Health and Human Services (the Secretary) may disregard the ASP for
                  the drug when setting reimbursement amounts. 2, 3 The Act further states:
                           … the Inspector General shall inform the Secretary (at such times
                           as the Secretary may specify to carry out this subparagraph) and
                           the Secretary shall, effective as of the next quarter, substitute for
                           the amount of payment … the lesser of (i) the widely available
                           market price … (if any); or (ii) 103 percent of the average
                           manufacturer price…. 4
                  Coverage of Prescription Drugs Under Medicare Part B
                  Medicare Part B covers only a limited number of outpatient prescription
                  drugs. Covered drugs include injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer drugs
                  and immunosuppressive drugs; drugs used in conjunction with durable
                  medical equipment; and some vaccines.
                  Payments for Prescription Drugs Under Medicare Part B
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  private companies to process and pay Medicare Part B claims, including
                  those for prescription drugs. To obtain reimbursement for covered
                  outpatient prescription drugs, health care providers submit claims to
                  Medicare contractors using Healthcare Common Procedure Coding
                  System (HCPCS) codes. 5 In the case of prescription drugs, each HCPCS

                  1
                    Section 1847A(d)(2)(B) of the Act.
                  2
                    Section 1847A(d)(3)(A) of the Act.
                  3
                    Section 1847A(d)(3)(B)(ii) of the Act authorizes the Secretary to adjust the applicable
                  threshold percentage in 2006 and subsequent years; however, the threshold percentage
                  has been maintained at 5 percent.
                  4
                    Section 1847A(d)(3)(C) of the Act.
                  5
                    CMS established the HCPCS to provide a standardized coding system for describing the
                  specific items and services provided in the delivery of health care.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                       1
                  code defines the drug name and the amount of the drug represented by the
                  HCPCS code but does not specify the manufacturer or package size.
                  Medicare and its beneficiaries spent over $12 billion for Part B drugs in
                  2011. 6 Although Medicare paid for more than 500 outpatient prescription
                  drug HCPCS codes that year, most of the spending for Part B drugs was
                  concentrated on a relatively small subset of those codes. In 2011,
                  62 HCPCS codes accounted for 90 percent of the expenditures for Part B
                  drugs, with only 13 of these codes representing the majority of total Part B
                  drug expenditures.
                  Reimbursement Methodology for Part B Drugs
                  Medicare Part B pays for most covered drugs using a reimbursement
                  methodology based on ASPs.7 As defined by law, an ASP is a
                  manufacturer’s sales of a drug to all purchasers in the United States in a
                  calendar quarter divided by the total number of units of the drug sold by
                  the manufacturer in that same quarter. 8 The ASP is net of any price
                  concessions, such as volume discounts, prompt pay discounts, cash
                  discounts, free goods contingent on purchase requirements, chargebacks,
                  and rebates other than those obtained through the Medicaid drug rebate
                  program. 9 Sales that are nominal in amount are exempted from the ASP
                  calculation, as are sales excluded from the determination of “best price” in
                  Medicaid’s drug rebate program. 10, 11
                  Manufacturers that participate in the Medicaid drug rebate program must
                  provide CMS with the ASP and volume of sales for each of their national
                  drug codes (NDC) on a quarterly basis, with submissions due 30 days after
                  the close of each quarter. 12 An NDC is an 11-digit identifier that
                  represents a specific manufacturer, product, and package size.
                  Because Medicare Part B reimbursement for outpatient drugs is based on
                  HCPCS codes rather than NDCs and more than one NDC may meet the
                  definition of a particular HCPCS code, CMS has developed a file that

                  6
                    Medicare expenditures for Part B drugs in 2011 were calculated using CMS’s Part B
                  Analytics and Reports (PBAR). The PBAR data for 2011 were 98-percent complete
                  when the data were downloaded in May 2012.
                  7
                    Several Part B drugs, including certain vaccines and blood products, are not paid for
                  under the ASP methodology.
                  8
                    Section 1847A(c) of the Act, as added by the Medicare Prescription Drug,
                  Improvement, and Modernization Act of 2003, P.L. 108-173.
                  9
                    Section 1847A(c)(3) of the Act.
                  10
                     Section 1847A(c)(2) of the Act.
                  11
                     Pursuant to § 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                  from the manufacturer during the rebate period to any wholesaler, retailer, provider,
                  health maintenance organization, nonprofit entity, or governmental entity within the
                  United States, with certain exceptions.
                  12
                     Section 1927(b)(3) of the Act.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                           2
                  “crosswalks” manufacturers’ NDCs to HCPCS codes. CMS uses
                  information in this crosswalk file to calculate volume-weighted ASPs for
                  covered HCPCS codes. 13
                  Under the ASP pricing methodology, the Medicare reimbursement for
                  most Part B drugs is equal to 106 percent of the volume-weighted ASP for
                  the HCPCS code. 14, 15 However, there is a two-quarter lag between the
                  sales period for which ASPs are reported and the effective date of the
                  reimbursement amounts. For example, ASPs from the first quarter of 2011
                  were used to establish reimbursement amounts for the third quarter of
                  2011, and ASPs from the fourth quarter of 2011 were used to establish
                  reimbursement amounts for the second quarter of 2012.
                  The Medicaid Drug Rebate Program and AMPs
                  In general, for Federal payment to be available for covered outpatient
                  drugs provided under Medicaid, the Act mandates that drug manufacturers
                  enter into rebate agreements with the Secretary and pay quarterly rebates
                  to State Medicaid agencies. 16 Under these rebate agreements and pursuant
                  to the Act, manufacturers must provide CMS with the AMPs for each of
                  their NDCs. 17 As further explained in regulation, manufacturers are
                  required to submit AMPs within 30 days after the end of each quarter. 18
                  The AMP is generally calculated as a weighted average of prices for all of
                  a manufacturer’s package sizes of a drug and is reported for the lowest
                  identifiable quantity of the drug (e.g., 1 milliliter, one tablet, one capsule).
                  By law, AMP is defined as the average price paid to the manufacturer for
                  the drug in the United States by (1) wholesalers for drugs distributed to




                  13
                     To calculate a volume-weighted ASP, CMS uses an equation that involves the
                  following variables: the ASP for the 11-digit NDC as reported by the manufacturer, the
                  volume of sales for the NDC as reported by the manufacturer, and the number of billing
                  units in the NDC as determined by CMS. The amount of the drug represented by an
                  NDC may differ from the amount of the drug specified by the HCPCS code that
                  providers use to bill Medicare. Therefore, the number of billing units in an NDC
                  describes the number of HCPCS code units in that NDC. CMS calculates the number of
                  billing units in each NDC when developing its crosswalk files.
                  14
                     The equation that CMS currently uses to calculate volume-weighted ASPs is described
                  in section 1847A(b)(6) of the Act. It is also provided in Appendix A.
                  15
                     Section 1847A(b)(1) of the Act. Medicare beneficiaries are responsible for 20 percent
                  of this amount in the form of coinsurance.
                  16
                     Sections 1927(a)(1) and (b)(1) of the Act.
                  17
                     Section 1927(b)(3) of the Act.
                  18
                     42 CFR § 447.510.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                       3
                  retail community pharmacies and (2) retail community pharmacies that
                  purchase drugs directly from the manufacturer. 19, 20
                  Penalties for Failure To Report Timely Drug Pricing Data
                  Pursuant to the Act, manufacturers that fail to provide ASP and AMP data
                  on a timely basis may be subject to civil monetary penalties and/or
                  termination from the drug rebate program. 21, 22 Accordingly, CMS has
                  terminated rebate agreements with a number of manufacturers for failure
                  to report AMPs and, for the purposes of evaluating potential civil
                  monetary penalties, has referred to OIG manufacturers that failed to
                  submit timely ASPs and AMPs. In accordance with an enforcement
                  initiative announced in September 2010, OIG has imposed civil monetary
                  penalties on certain manufacturers that failed to report timely ASPs and/or
                  AMPs. 23
                  OIG’s Monitoring of ASPs and AMPs
                  To comply with its statutory mandate, OIG has issued 24 quarterly pricing
                  comparisons since the ASP reimbursement methodology for Part B drugs
                  was implemented in January 2005. 24 In addition, OIG has completed four
                  annual overviews of ASPs and AMPs, which examined data across all four
                  quarters of 2007, 2008, 2009, and 2010.
                  OIG has consistently recommended that CMS develop a price substitution
                  policy and subsequently lower reimbursement for drugs that exceed the
                  5-percent threshold as directed by the Act. Although CMS has yet to make
                  any changes to Part B drug reimbursement as a result of OIG’s studies, the
                  agency published a final rule in November 2012 that, among other things,



                  19
                     Section 1927(k)(1) of the Act, as amended by § 2503 of the Patient Protection and
                  Affordable Care Act, P.L. 111-148.
                  20
                     Pursuant to § 1927(k)(10) of the Act, “retail community pharmacy” means an
                  independent, chain, supermarket, or mass merchandiser pharmacy that is licensed as a
                  pharmacy by the State and that dispenses medications to the general public at retail
                  prices. Such term does not include a pharmacy that dispenses prescription medications to
                  patients primarily through the mail; nursing home, long-term-care, or hospital
                  pharmacies; clinics; charitable or not-for-profit pharmacies; government pharmacies; or
                  pharmacy benefit managers.
                  21
                     Sections 1927(b)(3)(C)(i) and (4)(B)(i) of the Act.
                  22
                     The Secretary delegated to OIG the responsibility to impose civil monetary penalties
                  for violations of § 1927(b)(3)(C) of the Act in 59 Fed. Reg. 52967 (Oct. 20, 1994).
                  23
                     OIG, Special Advisory Bulletin: Average Manufacturer Price and Average Sales Price
                  Reporting Requirements, September 2010. Available online at http://www.oig.hhs.gov.
                  24
                     This report total does not include our pricing comparison for the third quarter of 2011,
                  which was not made available to the public. Rather, OIG issued the results for that
                  quarter directly to CMS to facilitate price substitutions that CMS intended to make
                  beginning April 2012. However, CMS ultimately did not make those price
                  substitutions in light of access concerns related to drug shortages.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                         4
                  specifies the circumstances under which AMP-based price substitutions
                  will occur beginning in 2013. 25, 26
                  CMS’s Proposed Price Substitution Policy
                  According to its November 2012 final rule, CMS will substitute
                  103 percent of the AMP for the ASP-based reimbursement amount when
                  OIG identifies a HCPCS code that exceeds the 5-percent threshold in two
                  consecutive quarters or three of four quarters. 27 Because CMS believes
                  that comparisons based on partial AMP data may not adequately reflect
                  market trends, the agency will lower reimbursement amounts only when
                  ASP and AMP comparisons are based on the same set of NDCs (i.e., are
                  based on complete AMP data). 28 HCPCS codes that meet the 5-percent
                  threshold on the basis of partial AMP data will not be eligible for price
                  substitution.
                  CMS plans to apply its price substitution policy on a quarterly basis
                  beginning in 2013. 29 Price substitutions will take effect in the quarter after
                  OIG shares the results of its most recent pricing comparison and will
                  remain in effect for one quarter. 30 To prevent CMS’s policy from
                  inadvertently raising the Medicare reimbursement amount, a price
                  substitution will not occur when the substituted amount is greater than the
                  ASP-based payment amount calculated for the quarter in which the price
                  substitution would take effect. 31 Price substitutions will also not occur


                  25
                     77 Fed. Reg. 68892, 69368 (November 16, 2012).
                  26
                     This is the third time that CMS has pursued rulemaking on AMP-based price
                  substitutions. In July 2010, CMS published a proposed rule that specified the
                  circumstances under which AMP-based price substitutions would occur, effective
                  January 2011; however, the agency opted not to finalize this proposed rule partly on the
                  basis of impending changes to the definition of AMP (75 Fed. Reg. 73170, 73471
                  (Nov. 29, 2010)). In November 2011, CMS published a final rule that again specified
                  circumstances under which price substitutions would occur (76 Fed. Reg. 73026, 73473
                  (Nov. 28, 2011)). Although the final rule took effect in January 2012, CMS did not
                  implement that policy in light of access concerns related to drug shortages.
                  27
                     77 Fed. Reg. 68892, 69368 (November 16, 2012). CMS has expressed concern that
                  price substitutions based on results from a single quarter will not accurately account for
                  temporary fluctuations in market prices and believes that focusing on drugs that
                  consistently exceed the threshold over multiple quarters is more appropriate. See, e.g.,
                  76 Fed. Reg. 73026, 73288, 73291 (Nov. 28, 2011).
                  28
                     76 Fed. Reg. 73026, 73289 (Nov. 28, 2011)
                  29
                     77 Fed. Reg. 68892, 69368 (November 16, 2012).
                  30
                     See, e.g., 76 Fed. Reg. 73026, 73473 (Nov. 28, 2011). After that one quarter, the
                  reimbursement amount will be either 106 percent of the volume-weighted ASP for the
                  current quarter or, if the HCPCS code continues to meet CMS’s price substitution
                  criteria, 103 percent of the volume-weighted AMP for the current quarter.
                  31
                     77 Fed. Reg. 68892, 69368 (November 16, 2012). For example, if the AMP-based
                  substitution amount were $5 and the ASP-based reimbursement amount were $4 for the
                  quarter in which the substitution would take place, CMS would not make the price
                  substitution.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                             5
                  when the drug and dosage form described by the HCPCS code is a critical
                  or medically necessary drug identified by the Food and Drug
                  Administration (FDA) as being in short supply. 32

                  METHODOLOGY
                  We obtained files from CMS containing NDC-level ASP data from the
                  first through fourth quarters of 2011, which were used to establish
                  Part B drug reimbursement amounts for the third quarter of 2011 through
                  the second quarter of 2012, respectively. These files also include
                  information that crosswalks NDCs to their corresponding HCPCS codes.
                  We also obtained AMP data from CMS for the first through fourth quarters
                  of 2011. 33
                  Calculating Volume-Weighted ASPs and AMPs for 2011
                  As mentioned previously, Medicare does not base reimbursement for
                  covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS
                  uses quarterly ASP information submitted by manufacturers for each NDC
                  to calculate a volume-weighted ASP for each covered HCPCS code.
                  When calculating these volume-weighted ASPs, CMS includes only NDCs
                  with ASP submissions that are deemed valid.
                  As part of our analysis for each of the 2011 quarterly comparisons, we
                  calculated a volume-weighted AMP for each HCPCS code, consistent with
                  CMS’s methodology for calculating volume-weighted ASPs. To ensure
                  that the broadest range of drug codes is subject to OIG’s pricing
                  comparisons, we examined HCPCS codes with complete AMP data (i.e.,
                  HCPCS codes with AMP data for every NDC that CMS used in its
                  calculation of volume-weighted ASPs), as well as HCPCS codes with
                  partial AMP data (i.e., HCPCS codes with AMP data for only some of the
                  NDCs that CMS used in its calculation of volume-weighted ASPs). When
                  calculating the volume-weighted AMP for a HCPCS code with partial
                  AMP data, we excluded any NDCs without AMPs; however, we did not
                  exclude those NDCs from the corresponding volume-weighted ASP. This
                  means that the volume-weighted AMP for a HCPCS code with partial
                  AMP data is based on fewer NDCs than the volume-weighted ASP for that
                  same code. Appendix B describes in more detail the methods used to
                  calculate volume-weighted AMPs for HCPCS codes using complete or
                  partial AMP data.


                  32
                    77 Fed. Reg. 44722, 45057 (July 30, 2012).
                  33
                    ASP and crosswalk data from the first through fourth quarters of 2011 were current as
                  of June 2011, September 2011, December 2011, and March 2012, respectively. AMP
                  data from the first through fourth quarters of 2011 were current as of May 2011, August
                  2011, November 2011, and April 2012, respectively.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                      6
                  Comparing Volume-Weighted ASPs and AMPs for 2011
                  In each of our 2011 quarterly comparisons, we compared the volume-
                  weighted ASPs and AMPs and identified HCPCS codes with ASPs that
                  exceeded the AMPs by at least 5 percent when calculated using either
                  complete or partial AMP data. 34 For each of the HCPCS codes that
                  exceeded the 5-percent threshold in at least one quarter of 2011, we
                  estimated the impact of lowering reimbursement to 103 percent of the
                  AMP. 35
                  As part of our 2011 annual overview, we merged the results of the four
                  quarterly pricing comparisons to identify HCPCS codes with ASPs that
                  exceeded AMPs by at least 5 percent in one or more quarters of 2011
                  when calculated using either complete or partial AMP data. To provide
                  more accurate savings estimates, we recalculated the savings estimates for
                  the codes that exceeded the threshold in one or more quarters of 2011
                  using recent Medicare payment amount and expenditures data that were
                  not available when our quarterly pricing comparisons were originally
                  performed. As a result, the estimated savings presented in this annual
                  overview may differ from the savings presented in each of OIG’s separate
                  quarterly pricing comparisons. Appendix C describes in more detail the
                  methods we used to estimate savings for HCPCS codes that exceeded the
                  5-percent threshold.
                  Additional Analysis of HCPCS Codes With Complete AMP Data. To
                  examine the potential effect of CMS’s proposed price substitution policy,
                  each of our quarterly pricing comparisons for 2011 identified codes with
                  complete AMP data that exceeded the 5-percent threshold in two
                  consecutive or three of four quarters. 36
                  As part of our 2011 annual overview, we merged the results of the four
                  quarterly pricing comparisons to identify HCPCS codes that repeatedly



                  34
                     For those HCPCS codes that exceeded the 5-percent threshold, we reviewed the
                  associated NDCs to verify the accuracy of the billing unit information for the quarter(s)
                  in which the threshold was exceeded. If HCPCS codes had potentially inaccurate billing
                  units, we excluded them from our findings.
                  35
                     Section 1847A(d)(3)(C) of the Act directs the Secretary to replace payment amounts
                  for drugs that exceed the 5-percent threshold with the lesser of the widely available
                  market price (WAMP) for the drug (if any) or 103 percent of the AMP. For the purposes
                  of this study, we used 103 percent of the AMP to estimate the impact of lowering
                  reimbursement amounts. If WAMPs had been available for these drugs and had been
                  lower than 103 percent of the AMP, the savings estimate presented in this report would
                  have been greater.
                  36
                     To accurately identify codes that exceeded the 5-percent threshold in two consecutive
                  or three of four quarters, our pricing comparisons from the first three quarters of 2011
                  also examined quarterly results from 2010.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                       7
                  met this price substitution criterion. 37 In addition, we identified and
                  excluded HCPCS codes in any quarter of 2011 with AMP-based
                  substitution amounts that were greater than the ASP-based payment
                  amounts for the quarter in which the price substitution would have
                  occurred. We then totaled the estimated savings for the remaining HCPCS
                  codes that would have had price reductions. 38
                  Additional Analysis of HCPCS Codes With Partial AMP Data. For each
                  of our 2011 quarterly comparisons, we identified HCPCS codes with
                  partial AMP data that exceeded the 5-percent threshold only because AMP
                  data were missing or unavailable. 39 As mentioned previously, the
                  volume-weighted AMP for a HCPCS code with partial AMP data is based
                  on fewer NDCs than the volume-weighted ASP for that same code.
                  Therefore, there may be a disparity between the volume-weighted ASP
                  and AMP that would not exist if AMP data were available for the full set
                  of NDCs. In other words, the volume-weighted ASP for the HCPCS code
                  could exceed the volume-weighted AMP by at least 5 percent only because
                  AMPs for certain NDCs were not represented.
                  To determine whether NDCs without AMPs unduly influenced the results
                  of our pricing comparisons, we reanalyzed pricing data after accounting
                  for the missing and unavailable AMP values. Specifically, we replaced
                  each missing or unavailable value with its corresponding ASP and
                  recalculated the volume-weighted AMPs using those imputed prices. 40 We
                  then compared those new volume-weighted AMPs to the volume-weighted
                  ASPs originally calculated by CMS.
                  If a HCPCS code no longer exceeded the 5-percent threshold in a given
                  quarter, we concluded that the missing and unavailable AMPs were likely

                  37
                     Because of the two-quarter lag between the period for which ASPs are reported and the
                  effective date of reimbursement amounts and the additional quarter that will be necessary
                  for OIG to complete its pricing comparison, there will be a three-quarter lag between the
                  ASP reporting period and the effective date of the price substitutions. Therefore,
                  AMP-based price substitutions based on pricing data from the first through fourth
                  quarters of 2011 would have applied in the fourth quarter of 2011 through the third
                  quarter of 2012, respectively.
                  38
                     We did not determine whether any of the remaining drugs were identified by FDA as
                  being in short supply during the applicable quarters.
                  39
                     For the purposes of this study, an AMP was considered “missing” if the manufacturer
                  had a Medicaid rebate agreement in 2011 but did not submit a price for the quarter. An
                  AMP was considered “unavailable” for an NDC if the manufacturer did not have a
                  Medicaid rebate agreement and was therefore not required to submit AMP data to CMS.
                  To determine whether a manufacturer had a rebate agreement in 2011, we consulted the
                  list of participating drug companies posted on CMS’s Web site.
                  40
                     Although an NDC’s ASP is not usually the same as its AMP, ASPs in 2011 were
                  within 3 percent of the AMPs at the median. Therefore, we believe that ASP acts as a
                  reasonable proxy for AMP, ensuring that the NDC is represented in both the volume-
                  weighted ASP and the volume-weighted AMP for the HCPCS code.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                       8
                  responsible for the HCPCS code’s having initially exceeded the threshold
                  in that quarter, as opposed to an actual disparity between ASPs and AMPs
                  in the marketplace. If a HCPCS code continued to exceed the 5-percent
                  threshold in a given quarter, we concluded that missing and unavailable
                  AMPs had little impact on the results of our pricing comparison for that
                  quarter. For these cases, the HCPCS codes likely exceeded the threshold
                  as a result of actual pricing differences between ASPs and AMPs.
                  As part of our 2011 annual overview, we merged the results of the four
                  quarterly pricing comparisons to identify HCPCS codes with partial AMP
                  data that exceeded the 5-percent threshold in one or more quarters of 2011
                  because of an actual pricing disparity. Because price substitutions for
                  these HCPCS codes may be warranted, we estimated the monetary impact
                  of lowering reimbursement for these codes to 103 percent of the new
                  volume-weighted AMPs. 41
                  Analyzing HCPCS Codes With No AMP Data in 2011
                  In each of our pricing comparisons for 2011, we excluded HCPCS codes
                  that had missing or unavailable AMP data for all of the NDCs CMS used
                  to calculate Medicare reimbursement. To identify the total number of
                  HCPCS codes that were excluded from OIG pricing comparisons in 2011,
                  we merged the results from each of the four quarterly reports. We then
                  identified the number of HCPCS codes that were never included in OIG’s
                  pricing comparisons in 2011 because of missing or unavailable AMP data.
                  Limitations
                  We did not verify the accuracy of manufacturer-reported ASP and AMP
                  data, nor did we verify the underlying methodology used by manufacturers
                  to calculate ASPs and AMPs. We also did not verify the accuracy of
                  CMS’s crosswalk files or examine NDCs that CMS opted to exclude from
                  its calculation of Part B drug reimbursement amounts.
                  Manufacturers are required to submit their quarterly ASP and AMP data to
                  CMS within 30 days after the close of the quarter. Our analyses were
                  performed on ASP and AMP data compiled by CMS soon after that
                  deadline. We did not determine whether manufacturers provided any
                  updated data to CMS at a later date.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.


                  41
                    We did not determine whether any of these drugs were identified by FDA as being in
                  short supply during the applicable quarters.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                       9
                  FINDINGS
                  In 2011, 58 HCPCS codes exceeded the 5-percent
                  threshold in 1 or more quarters when complete AMP
                  data were used
                  Consistent with sections 1847A(d)(2)(B) and 1847A(d)(3) of the Act, OIG
                  compared ASPs with AMPs to identify instances in which the ASP for a
                  particular drug exceeded the AMP by a threshold of 5 percent. Of the
                  472 HCPCS codes examined during 2011, 58 exceeded this 5-percent
                  threshold in at least one quarter when complete AMP data were used. 42
                  Appendix D lists the 58 HCPCS codes, including the quarter(s) during
                  which the codes exceeded the threshold.
                  Pursuant to section 1847A(d)(3) of the Act, the Secretary may disregard
                  the ASP for a drug that exceeds the 5-percent threshold and shall substitute
                  the payment amount with the lesser of either the WAMP or 103 percent of
                  the AMP. We estimate that if reimbursement amounts for the 58 codes
                  with complete AMP data had been lowered to 103 percent of the AMPs
                  during the applicable quarters, Medicare expenditures would have been
                  reduced by $14.4 million between the fourth quarter of 2011 and the third
                  quarter of 2012. 43, 44
                  Under CMS’s proposed price substitution policy,
                  reimbursement amounts for over 40 percent of the 58 HCPCS
                  codes would have been reduced, resulting in an estimated
                  savings of almost $7 million over 1 year
                  If CMS’s proposed price substitution policy had been in effect during
                  2011, reimbursement amounts for 24 of the 58 HCPCS codes would have
                  been reduced in at least one quarter. These 24 HCPCS codes had
                  complete AMP data and exceeded the 5-percent threshold in two
                  consecutive or three of four quarters. In addition, the AMP-based
                  substitution amounts for these 24 codes were less than the ASP-based
                  payment amounts for the quarter(s) in which the substitutions would have


                  42
                     Three of the 58 codes also exceeded the 5-percent threshold in at least one quarter
                  when partial AMP data were used.
                  43
                     As mentioned previously, AMP-based price substitutions calculated using pricing data
                  from the first through fourth quarters of 2011 would have been applied in the fourth
                  quarter of 2011 through the third quarter of 2012, respectively.
                  44
                     Of the 58 HCPCS codes, 7 had AMP-based substitution amounts that were higher than
                  the ASP-based reimbursement amounts in every quarter in which the substitutions would
                  have occurred; therefore, we excluded these codes from our savings estimate. We were
                  unable to estimate savings for an additional three HCPCS codes because they did not
                  have any allowed services listed in the 2011 PBAR file.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                      10
                  been applied. 45 If reimbursement amounts for the 24 codes had been
                  based on 103 percent of the AMPs during the applicable quarters,
                  Medicare expenditures would have been reduced by an estimated
                  $6.9 million between the fourth quarter of 2011 and the third quarter of
                  2012. Appendix D includes a list of the 24 HCPCS codes and the
                  quarter(s) during which those codes would have met CMS’s price
                  substitution criteria.

                  In 2011, 24 HCPCS codes exceeded the 5-percent
                  threshold in 1 or more quarters when partial AMP data
                  were used
                  Of the 472 HCPCS codes examined during 2011, 24 exceeded the
                  5-percent threshold in at least 1 quarter when partial AMP data were
                  used. 46
                  For over 60 percent of the HCPCS codes, missing and
                  unavailable AMPs likely had little influence on the outcome of
                  the pricing comparisons
                  When we accounted for missing and unavailable AMPs, 15 of the
                  24 HCPCS codes continued to exceed the threshold in at least 1 quarter of
                  2011, suggesting that the pricing comparisons for these codes were
                  accurately capturing underlying market trends even though AMP data
                  were not available for the full set of NDCs. Because missing and
                  unavailable AMP data had seemingly little influence on the pricing
                  comparison results for these 15 HCPCS codes, price substitutions may be
                  legitimately warranted in these cases. We estimate that if reimbursement
                  amounts for the 15 codes had been based on 103 percent of the AMPs
                  during the applicable quarters, Medicare expenditures would have been
                  reduced by $485,000 between the fourth quarter of 2011 and the third
                  quarter of 2012. 47 Appendix E lists the 15 HCPCS codes, including the
                  quarter(s) during which the codes exceeded the 5-percent threshold after
                  accounting for missing and unavailable AMP values.

                  45
                     Two additional HCPCS codes had complete AMP data and exceeded the 5-percent
                  threshold in two consecutive or three of four quarters; however, the AMP-based
                  substitution amounts for these codes were higher than the ASP-based reimbursement
                  amounts in every quarter in which the substitutions would have occurred.
                  46
                     Three of the twenty-four codes also exceeded the 5-percent threshold in at least one
                  quarter when complete AMP data were used.
                  47
                     Of the 15 HCPCS codes, 3 had AMP-based substitution amounts that were higher than
                  the ASP-based reimbursement amounts in every quarter in which the substitutions may
                  have occurred; therefore, we excluded these codes from our savings estimate. We were
                  unable to estimate savings for one additional HCPCS code because the code did not have
                  any allowed services listed in the 2011 PBAR file.



Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                      11
                  For the remaining 9 of 24 HCPCS codes, ASPs no longer exceeded the
                  AMPs in any quarter, indicating that these codes initially exceeded the
                  threshold because of missing AMP data rather than a genuine pricing
                  disparity between the ASPs and AMPs.

                  Because of NDCs without AMP data, the number of
                  pricing comparisons performed in 2011 was reduced
                  by at least 9 percent in each quarter
                  If a HCPCS code had no AMPs for any of its associated NDCs, we could
                  not evaluate that code pursuant to sections 1847A(d)(2)(B) and
                  1847A(d)(3) of the Act. In 2011, from 9 to 10 percent of HCPCS codes
                  were excluded from OIG’s pricing comparisons in each quarter because
                  AMP data were missing or unavailable for all of the associated NDCs. 48, 49
                  Table 1 lists the number and percentage of HCPCS codes in each quarter
                  that were excluded from our analysis and specifies the number of codes
                  that were based on unavailable NDCs, missing NDCs, or a combination of
                  both.
                  In total, 55 HCPCS codes were excluded from OIG’s pricing comparisons
                  in 1 or more quarters of 2011 because AMP data were missing or
                  unavailable for all of the NDCs that CMS used to calculate Medicare
                  reimbursement for that quarter. For most of these codes (44 of 55), we
                  were never able to perform pricing comparisons in 2011 because AMPs
                  were always missing or unavailable for all of the associated NDCs.
                  Seventy percent of the 44 HCPCS codes (31 of 44) would never have been
                  subject to our pricing comparisons because they were associated
                  exclusively with NDCs for which manufacturers were not required to
                  report AMP data. In 2011, Medicare and its beneficiaries spent
                  $119 million on these 31 drugs.




                  48
                     Relative to the total number of HCPCS codes in each quarter with Medicare
                  reimbursement amounts based on the ASP payment methodology.
                  49
                     As mentioned previously, for the purposes of this study, an AMP was considered
                  “missing” if the manufacturer had a Medicaid rebate agreement in 2011 but did not
                  submit an AMP for the quarter. An AMP was considered “unavailable” for an NDC if
                  the manufacturer did not participate in the Medicaid drug rebate program and was
                  therefore not required to submit AMP data.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                    12
Table 1: HCPCS Codes That Were Excluded From 2011 Pricing Comparisons

                                                                                                                   Percentage
                                                                  Number Excluded Because
                                                                                                     Excluded Because None of
                                                                  None of the Corresponding
                                                                                                      the Corresponding NDCs
                                                                        NDCs Had AMP Data
 Quarter in 2010                                                                                               Had AMP Data *

 First                                                                                        51                                 10%
 Codes with unavailable AMPs only                                                             37
 Codes with missing AMPs only                                                                 12
 Codes with a mix of missing and unavailable AMPs                                               2
 Second                                                                                       49                                 10%
 Codes with unavailable AMPs only                                                             36
 Codes with missing AMPs only                                                                 10
 Codes with a mix of missing and unavailable AMPs                                               3
 Third                                                                                        47                                 9%
 Codes with unavailable AMPs only                                                             34
 Codes with missing AMPs only                                                                 10
 Codes with a mix of missing and unavailable AMPs                                               3
 Fourth                                                                                       48                                 9%
 Codes with unavailable AMPs only                                                             36
 Codes with missing AMPs only                                                                   9
 Codes with a mix of missing and unavailable AMPs                                               3
* Relative to the total number of HCPCS codes in each quarter with reimbursement amounts based on the ASP payment methodology.
Source: OIG analysis of ASP and AMP data from the first through fourth quarters of 2011.




  Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                                             13
                  CONCLUSION AND RECOMMENDATIONS
                  When Congress established ASP as the basis for Medicare Part B drug
                  reimbursement, it also provided a mechanism for monitoring market prices
                  and limiting potentially excessive payment amounts based on ASPs.
                  Specifically, the ASP statute mandates that OIG monitor ASPs by
                  comparing them with AMPs and WAMPs and directs CMS to lower
                  reimbursement for certain drugs on the basis of OIG’s findings. Since the
                  ASP payment methodology took effect in January 2005, OIG has fulfilled
                  its responsibility to monitor ASP-based payment amounts by issuing
                  28 comparisons between ASPs and AMPs, each of which identified Part B
                  drugs that would have been eligible for price reductions under the law.
                  However, CMS has yet to lower reimbursement in response to OIG’s
                  findings and recommendations.
                  This report identified 58 drug codes that exceeded the 5-percent threshold
                  in 1 or more quarters of 2011 when complete AMP data were used. If
                  reimbursement amounts for these 58 codes had been lowered to
                  103 percent of the AMP during the applicable quarter(s), Medicare
                  expenditures would have been reduced by an estimated $14.4 million over
                  1 year. Under CMS’s price substitution policy, reimbursement amounts
                  for over 40 percent of these codes would have been reduced, saving an
                  estimated $7 million over 1 year. An additional 24 HCPCS codes
                  exceeded the 5-percent threshold when partial AMP data were used. We
                  found that missing and unavailable AMPs for the majority of these codes
                  likely had little influence on the outcome of the pricing comparisons;
                  therefore, price substitution may be legitimately warranted in these cases.
                  We also found that 31 HCPCS codes were never subject to pricing
                  comparisons in 2011 because they were associated exclusively with NDCs
                  for which manufacturers were not required to report AMP data.
                  Mandated pricing comparisons enable CMS to make responsive, short-
                  term payment adjustments that prevent Medicare and its beneficiaries
                  from overspending. Although the savings associated with such
                  adjustments may be modest relative to total expenditures for Part B drugs,
                  significant savings would have accrued had CMS taken action
                  immediately after OIG issued its first pricing comparison. In the long
                  term, savings achieved through price substitution could reduce waste and
                  conserve taxpayer funds at a time when increased focus has been placed
                  on rising health care costs and fiscal responsibility. Therefore, we
                  recommend that CMS:




Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                         14
                  Finalize the price substitution policy in the proposed rule and
                  lower Medicare reimbursement amounts for drugs that exceed
                  the 5-percent threshold
                  CMS’s most recent proposed policy represents a step toward meeting
                  statutory price substitution requirements and addressing the gap between
                  ASPs and AMPs for certain Part B drugs. We recommend that CMS move
                  forward with finalizing and applying this policy.
                  Consider expanding the price substitution policy to include all
                  HCPCS codes with complete AMP data
                  CMS has expressed concern that price substitutions based on results from
                  a single quarter will not appropriately or accurately account for temporary
                  fluctuations in market prices that would be corrected in a subsequent
                  quarter; therefore, the agency plans to lower reimbursement amounts only
                  for those codes with complete AMP data that exceed the 5-percent
                  threshold in two consecutive or three of four quarters. However, this
                  cautious approach would have drastically reduced the effectiveness of ASP
                  monitoring in 2011, cutting potential savings by more than half.
                  Temporary fluctuations in ASPs and AMPs may nevertheless represent
                  legitimate pricing discrepancies that lead Medicare and its beneficiaries to
                  overpay for certain drugs, if only for a single quarter. Because price
                  substitutions will remain in effect for only one quarter and will be resolved
                  when any temporary fluctuations are corrected, we suggest that CMS
                  consider including in its price substitution policy all HCPCS codes with
                  complete AMP data that exceed the 5-percent threshold, regardless of the
                  duration of the price discrepancies.
                  Consider expanding the price substitution policy to include certain
                  HCPCS codes with partial AMP data
                  Because CMS believes that volume-weighted AMPs based on partial AMP
                  data may not adequately account for market-related drug price changes
                  and may lead to artificially low price substitutions, codes that exceed the
                  5-percent threshold when partial AMP data are used would not be eligible
                  for price reduction under CMS’s proposed price substitution policy.
                  However, for 15 HCPCS codes with partial AMP data in 2011, missing
                  and unavailable AMPs likely had little influence on the outcome of the
                  pricing comparisons. When we accounted for missing AMPs, these 15
                  HCPCS codes continued to exceed the threshold, indicating that the
                  pricing comparisons were accurately capturing underlying market trends
                  even though AMP data were not available for the full set of NDCs.
                  Because the risk of substituting ASP-based reimbursement with an
                  artificially low volume-weighted AMP is greatly diminished for these
                  types of HCPCS codes, we suggest that CMS consider including in its


Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                           15
                  price substitution policy HCPCS codes identified by OIG as meeting the
                  threshold when missing AMPs have been imputed.
                  Furthermore, by excluding from its policy all codes with partial AMP data,
                  CMS may inadvertently provide drug manufacturers with a disincentive to
                  submit timely AMPs. CMS could avoid this potential disincentive by
                  applying its substitution policy to at least certain HCPCS codes with
                  partial AMP data.
                  Consider seeking a legislative change to require manufacturers of
                  Part B-covered drugs to submit both ASPs and AMPs
                  During 2011, at least 34 HCPCS codes in each quarter could not be
                  included in OIG’s pricing comparisons because all of the associated NDCs
                  belonged to manufacturers that did not have Medicaid rebate agreements
                  and were therefore not required to provide AMP data to CMS. Thirty-one
                  HCPCS codes had unavailable AMP data in all four quarters of 2011.
                  Although Medicare and its beneficiaries spent over $100 million for these
                  drugs during that year, payment amounts for the drugs could not be
                  monitored through pricing comparisons with AMPs. To ensure that
                  payment amounts are subject to regular price monitoring and reflect
                  market trends for all drugs reimbursed on the basis of ASP, CMS could
                  seek a legislative change requiring manufacturers of such Part B-covered
                  drugs to submit ASPs and AMPs, regardless of whether they have rebate
                  agreements. OIG is planning a study that will determine the number of
                  Part B drugs associated with manufacturers that do not have rebate
                  agreements and therefore are not required to report ASP data.

                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with our recommendation to finalize the price substitution
                  policy and lower Medicare reimbursement amounts for drugs that exceed
                  the 5-percent threshold. CMS noted that the price substitution policy and
                  threshold were finalized in a November 2012 rule and will go into effect in
                  2013. 50 CMS also stated that this policy will not be applied to any drugs
                  that are identified by FDA as being in short supply. CMS believes that
                  this policy will safeguard its ability to achieve cost savings while
                  protecting access to drugs and preventing inadvertent payment reductions.
                  CMS did not concur with our recommendation to consider expanding the
                  price substitution policy to include all HCPCS codes with complete AMP
                  data that met the threshold in a single quarter. CMS stated that the policy
                  applies only to HCPCS codes with complete AMP data where the ASP

                  50
                       77 Fed. Reg. 68892, 69140-2 (November 16, 2012).

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                          16
                  exceeds the AMP by more than 5 percent in two consecutive quarters or
                  three of the previous four quarters immediately preceding the quarter to
                  which the price substitution would be applied. CMS also stated that the
                  November 2012 final rule includes the requirement that the applicable
                  threshold must be exceeded in two consecutive or three of four quarters.
                  Further, CMS noted that it has maintained a cautious approach to
                  implementing the policy and that public comments have supported such an
                  approach.
                  CMS did not concur with our recommendation to consider expanding the
                  price substitution policy to include certain HCPCS codes with partial AMP
                  data. CMS stated that it continues to believe that a distinction between
                  complete and partial data is necessary because of concerns that partial
                  AMP data comparisons do not adequately account for market-related drug
                  price changes and may lead to the substitution of incomplete and
                  inaccurate prices. Further, CMS stated that substitutions based on this
                  approach may impact physician and beneficiary access to drugs and that it
                  has not received additional information that would persuade it to revise
                  this position.
                  CMS also did not concur with our recommendation at this time to consider
                  seeking legislative change to require all manufacturers of Part B-covered
                  drugs to submit both ASPs and AMPs. CMS stated that the President’s
                  budget for 2013 does not include any proposals specific to this issue.
                  In response to CMS’s comments, we continue to note that CMS’s cautious
                  approach to expanding the price substitution policy (by not including price
                  substitutions based on results from a single quarter) would have drastically
                  reduced the effectiveness of ASP monitoring in 2011, cutting potential
                  savings by more than half. Also, missing and unavailable AMPs likely
                  had little influence on the outcome of the pricing comparisons for the 15
                  HCPCS codes with partial AMP data. Further, we reiterate that by
                  excluding from its policy all codes with partial AMP data, CMS may
                  inadvertently provide drug manufacturers with a disincentive to submit
                  timely AMPs. To ensure that CMS can make appropriate and timely
                  adjustments to reimbursement once the price substitution policy has been
                  implemented, we will continue to issue quarterly pricing reports
                  comparing ASPs and AMPs.
                  For the full text of CMS’s comments, see Appendix F.




Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                          17
                  APPENDIX A
                  The Equation Used by the Centers for Medicare & Medicaid
                  Services To Calculate Volume-Weighted Average Sales Prices
                  A volume-weighted average sales price (ASP) is calculated for the dosage
                  amount associated with the Healthcare Common Procedure Coding
                  System (HCPCS) code. In the following equation, the “number of billing
                  units” represents the number of HCPCS code doses that are contained in a
                  national drug code (NDC).


                 Volume-Weighted ASP                  Sum of (ASP for NDC * Number of NDCs Sold)
                  for Dosage Amount  =
                    of HCPCS Code              Sum of (Number of NDCs Sold * Number of Billing Units in NDC)




Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                    18
                  APPENDIX B
                  Detailed Methodology for Calculating Volume-Weighted
                  Average Manufacturer Prices for 2011
                  Before computing quarterly volume-weighted average manufacturer prices
                  (AMP) for 2011, it was necessary to identify the national drug codes
                  (NDC) that should be included in each quarter’s calculations. To ensure
                  that the broadest range of drug codes would be subject to the Office of
                  Inspector General’s pricing comparisons, we examined Healthcare
                  Common Procedure Coding System (HCPCS) codes with complete AMP
                  data (i.e., HCPCS codes with AMP data for every NDC that was used to
                  calculate Medicare reimbursement), as well as HCPCS codes with partial
                  AMP data (i.e., HCPCS codes with AMP data for only some of the NDCs
                  that were used to calculate Medicare reimbursement). 51
                  Calculating Converted AMPs
                  An AMP is reported for the lowest identifiable quantity of the drug
                  contained in the NDC (e.g., 1 milligram, 1 milliliter, one tablet,
                  one capsule). In contrast, an ASP is reported for the entire amount of the
                  drug contained in the NDC (e.g., for 50 milliliters, for 100 tablets). To
                  ensure that AMPs would be comparable to ASPs, it was necessary to
                  convert the AMPs for each NDC in each quarter so that they represented
                  the total amount of the drug contained in that NDC.
                  To calculate “converted AMPs” for the NDCs included in each of our
                  quarterly reports, we multiplied the AMP by the total amount of the drug
                  contained in each NDC, as identified by sources such as CMS’s crosswalk
                  file, manufacturer Web sites, Thomson Reuters’ Red Book, and the Food
                  and Drug Administration’s NDC directory.
                  For some NDCs, we could not identify the amount of the drug reflected by
                  the ASP or AMP and therefore could not calculate a converted AMP. The
                  extent to which NDCs with problematic AMP conversions affected our
                  analysis differed depending on whether the associated HCPCS code had
                  complete AMP data or partial AMP data.
                  HCPCS Codes With Complete AMP Data. If a HCPCS code with
                  complete AMP data had one or more NDCs with a problematic AMP
                  conversion, we automatically excluded that HCPCS code from our pricing
                  comparison for the quarter.

                  51
                    We excluded NDCs without AMPs when calculating volume-weighted AMPs for
                  HCPCS codes with partial AMP data; however, the corresponding average sales prices
                  (ASP) were not excluded from the volume-weighted ASPs as determined by the Centers
                  for Medicare & Medicaid Services (CMS). Volume-weighted ASPs remained the same,
                  regardless of the availability of AMP data.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                 19
                  HCPCS Codes With Partial AMP Data. If a HCPCS code with partial
                  AMP data had one or more NDCs with a problematic AMP conversion, we
                  did not automatically exclude that HCPCS code from our pricing
                  comparison. Rather, we removed only the NDCs with problematic AMP
                  conversions. However, if all of the NDCs associated with the HCPCS
                  code had problematic AMP conversions, we dropped the HCPCS code
                  from that quarter’s analysis.
                  Calculating Volume-Weighted AMPs
                  Using the remaining NDCs with successful AMP conversions, we
                  calculated a volume-weighted AMP for each of the corresponding HCPCS
                  codes, consistent with the revised methodology for calculating volume-
                  weighted ASPs.




Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                     20
                  APPENDIX C
                  Detailed Methodology for Estimating Savings for Drug Codes
                  That Exceeded the 5-Percent Threshold in 2011
                  If the average sales price (ASP) for a Healthcare Common Procedure
                  Coding System (HCPCS) code exceeded the average manufacturer price
                  (AMP) by at least 5 percent in any quarter of 2011, we estimated the
                  savings associated with substituting the reimbursement amount for that
                  code with 103 percent of the AMP.
                  Because of the two-quarter lag between the period for which ASPs are
                  reported and the effective date of reimbursement amounts and the
                  additional quarter that will be necessary for the Office of Inspector
                  General (OIG) to complete its pricing comparison, there will be a
                  three-quarter lag between the ASP reporting period and the effective date
                  of the price substitutions. Therefore, AMP-based price substitutions based
                  on pricing data from the first through fourth quarters of 2011 would have
                  applied in the fourth quarter of 2011 through the third quarter of 2012,
                  respectively.
                  Calculation of Savings Estimates in the Separate Quarterly
                  Pricing Comparisons for 2011
                  For each HCPCS code that exceeded the 5-percent threshold in each
                  quarter, we calculated 103 percent of the volume-weighted AMP and
                  subtracted this amount from the reimbursement amount. Because we
                  performed our quarterly pricing comparisons before reimbursement
                  amounts were available for the quarters in which the price substitutions
                  would have occurred, we used the reimbursement amounts in effect at the
                  time of our analysis. For example, for each code that exceeded the
                  threshold in the first quarter of 2011, we subtracted 103 percent of the
                  volume-weighted AMP from the published reimbursement amount for the
                  third quarter of 2011.
                  To estimate the financial effect for each quarter, we multiplied the
                  difference between the reimbursement amount and 103 percent of the
                  AMP by one-fourth of the number of services that were allowed by
                  Medicare for each HCPCS code, as reported in the Centers for Medicare
                  & Medicaid Services’ (CMS) Part B Analytics and Reports (PBAR).
                  Savings estimates for codes that exceeded the threshold in the first through
                  third quarters were based on CMS’s PBAR data from 2010, whereas
                  savings estimates for codes in the fourth quarter were based on PBAR data
                  from 2011.



Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                          21
                  Calculation of Savings Estimates in the Annual Overview for
                  2011
                  For each of the HCPCS codes that exceeded the 5-percent threshold in a
                  given quarter of 2011, we calculated 103 percent of the volume-weighted
                  AMP and subtracted this amount from the reimbursement amount for the
                  HCPCS code during the quarter in which the price substitution would have
                  occurred. For example, for each code that exceeded the threshold in the
                  first quarter of 2011, we subtracted 103 percent of the volume-weighted
                  AMP from the published reimbursement amount for the fourth quarter of
                  2011. 52
                  Then, to estimate the financial effect of lowering reimbursement for the
                  applicable quarter, we multiplied the difference by one-fourth of the
                  number of services that were allowed by Medicare for each HCPCS code
                  in 2011, as reported in the PBAR.




                  52
                    If the AMP-based substitution amount for a given code was higher than the ASP-based
                  reimbursement amount for the quarter in which the substitution would have occurred, we
                  excluded that code from our savings estimate for that quarter.

Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                    22
                    APPENDIX D

                    Fifty-Eight Drug Codes That Exceeded the 5-Percent Threshold
                    in 2011 When Complete Average Manufacturer Price Data
                    Were Used
                                                                                  Quarter(s) in Which the Codes
                                                                               Exceeded the 5-Percent Threshold

Drug                                                       Drug Code         First   Second      Third    Fourth
Code     Description                                       Dosage          Quarter   Quarter   Quarter   Quarter
A9583   Gadofosveset trisodium injection                          1 mL                     X
J0130   Abciximab injection                                      10 mg           X        X*
J0287   Amphotericin b lipid complex injection                   10 mg          X*
J0456   Azithromycin injection                                  500 mg                                         X
J0470   Dimecaprol injection                                    100 mg                     X
J0500   Dicyclomine injection                                    20 mg                               X        X*
J0515   Benztropine mesylate injection                            1 mg                                         X
J0595   Butorphanol tartrate injection                            1 mg                                         X
J0610   Calcium gluconate injection                              10 mL                                         X
J0670   Mepivacaine HCl injection                                10 mL                                         X
J0713   Ceftazidime injection                                   500 mg                     X        X*        X*
J0720   Chloramphenicol sodium injection                              1g         X
J0744   Ciprofloxacin for intravenous infusion injection        200 mg                               X
J0770   Colistimethate sodium injection                         150 mg                                         X
J0780   Prochlorperazine injection                               10 mg                               X
J1070   Testosterone cypionate injection                        100 mg                     X         X        X*
J1120   Acetazolamide sodium injection                          500 mg                     X
J1205   Chlorothiazide sodium injection                         500 mg           X        X*        X*        X*
J1240   Dimenhydrinate injection                                 50 mg                     X
J1364   Erythromycin lactobionate injection                     500 mg          X*
J1557   Gammaplex injection                                     500 mg                               X
J1570   Ganciclovir sodium injection                            500 mg           X        X*        X*
J1580   Garamycin gentamicin injection                           80 mg           X
J1644   Heparin sodium injection                             1,000 units                   X
J1650   Enoxaparin sodium injection                              10 mg          X*        X*        X*        X*
J1742   Ibutilide fumarate injection                              1 mg                               X        X*
J1756   Iron sucrose injection                                    1 mg                                         X
J1955   Levocarnitine injection                                       1g        X*                             X
J2360   Orphenadrine injection                                   60 mg                               X
J2440   Papaverin HCl injection                                  60 mg                               X
J2501   Paricalcitol injection                                     1 µg                    X        X*        X*
J2545   Pentamidine isethionate inhalation solution             300 mg           X        X*
J2675   Progesterone injection                                   50 mg                               X        X*
J2780   Ranitidine HCl injection                                 25 mg                     X        X*        X*


 Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                          23
                          APPENDIX D (CONTINUED)
                                                                                                        Quarter(s) in Which the Codes
                                                                                                     Exceeded the 5-Percent Threshold

 Drug                                                                      Drug Code            First      Second          Third       Fourth
 Code        Description                                                   Dosage             Quarter      Quarter       Quarter      Quarter
 J2916      Sodium ferric gluconate complex injection                             12.5 mg              X
 J2993      Reteplase injection                                                   18.1 mg                           X
 J3303      Triamcinolone hexacetonl injection                                        5 mg                          X           X*               X
 J3411      Thiamine HCl injection                                                 100 mg                                                        X
 J7507      Tacrolimus, oral                                                          1 mg                          X            X
 J7620      Albuterol and ipratropium bromide, noncompounded               2.5 mg/0.5 mg                            X           X*               X
 J7631      Cromolyn sodium, noncompounded, unit dose form                          10 mg                                                        X
 J8510      Busulfan, oral                                                            2 mg                                                       X
 J9045      Carboplatin injection                                                   50 mg                                        X           X*
 J9060      Cisplatin injection                                                     10 mg             X*
 J9065      Cladribine injection                                                      1 mg                          X                            X
 J9100      Cytarabine HCl injection                                               100 mg              X
 J9150      Daunorubicin injection                                                  10 mg                           X           X*
 J9171      Docetaxel injection                                                       1 mg                          X
 J9190      Fluorouracil injection                                                 500 mg                           X
 J9211      Idarubicin HCl injection                                                  5 mg                                       X           X*
 J9214      Interferon alfa-2b injection                                    1 million units           X*           X*           X*           X*
 J9218      Leuprolide acetate injection                                              1 mg                         X*
 J9280      Mitomycin injection                                                       5 mg                                                       X
 J9293      Mitoxantrone HCl injection                                                5 mg                                                       X
 J9370      Vincristine sulfate injection                                             1 mg            X*
 Q0166      Granisetron HCL, oral                                                     1 mg                          X            X
 Q0167      Dronabinol, oral                                                       2.5 mg                                                        X
 Q0169      Promethazine HCl, oral                                                12.5 mg                           X
* Pricing comparisons for quarters marked with an asterisk would have triggered a price substitution based on criteria proposed by the Centers
for Medicare & Medicaid Services (CMS) (i.e., the drug code exceeded the 5-percent threshold in two consecutive or three of four quarters
and had a substitution amount that was less than the payment amount for the quarter in which the substitution would have occurred). In 2011,
a total of 24 drug codes would have been subject to price substitution under CMS’s proposed criteria.
Source: Office of Inspector General analysis of average sales price and average manufacturer price data from 2011.




   Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                                                      24
                         APPENDIX E

                         Fifteen Drug Codes With Partial Average Manufacturer Price
                         Data for Which Price Substitutions May Be Warranted
                                                                                                     Quarter(s) in Which the Codes
                                                                                                  Exceeded the 5-Percent Threshold

 Drug                                                                     Drug Code           First      Second        Third    Fourth
 Code        Description                                                  Dosage            Quarter      Quarter     Quarter   Quarter
 J0290      Ampicillin injection                                                 500 mg                          X
 J1020      Methylprednisolone injection                                          20 mg             X
 J1644      Heparin sodium injection                                          1000 units            X
 J2930      Methylprednisolone injection                                         125 mg                                              X
 J7509      Methylprednisolone, oral                                                4 mg            X            X
 J7608      Acetylcysteine inhalation solution, noncompounded                         1g                         X         X
 J9045      Carboplatin injection                                                 50 mg             X
 J9190      Fluorouracil injection                                               500 mg             X
 J9206      Irinotecan injection                                                  20 mg             X
 J9390      Vinorelbine tartrate injection                                        10 mg                          X
 Q0162      Ondansetron, oral                                                       1 mg                                   X         X
 Q0163      Diphenhydramine HCl injection                                         50 mg             X            X         X         X
 Q0164      Prochlorperazine maleate, oral                                          5 mg            X                      X         X
 Q0165      Prochlorperazine maleate, oral                                        10 mg             X            X                   X
 Q0179      Ondansetron HCl, oral                                                   8 mg            X            X
Source: Office of Inspector General analysis of average sales price and average manufacturer price data from 2011.




  Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                                                               25
                   APPENDIX F
Agency Comments



    (,,,.•·~ DEPARTME~'T                OP 11£Al:ffl &. HUMAN SERVKt.s

    \ •.~~           	                                                                                          - - - -- ·- -··--­
                                                                                                                  Office vf tltt ,-\dmi n islrQior
                                                                                                                  Waa'""91on. DC 20201



             I>ATE:                 DEC 0 7 2.012
             TO: 	               Daniel R. Levinson 

                                 Inspector General 


             FROM: 	             Marilyn Tavenner 

                                                             /S/
                                 Acting Administrator 


             SUH.JE 'T: 	 Office of lnspt:rlo r General (010) Draft Report: " t ompmison of Average Sales
                          Prices and Ave mge Manufacturer Prices: An Overview of 2011 '' (OEI-0 3-1 2­
                                 00670)


             The Centers for ~ed.iate & Medicaid Se r'dces (CMS) appreciates the opportunit y to review and
             <.:omment on OlG ' s Drnft Repon entitleAI, ''Co mparis on of Average Sale s Prices and Avcr<~ ge
             Manufa<-i urer Prices: An Overview of 2011'' (0El-03 - 12~J670). This report is part or a series
             o f average sales price (ASP) and ave mgc manufacturer price (AMP} c:omparisons required under
             section 1847A (d) of th e Social Securi ty Acl.

             The 010 stated that the objectives fo r this report were to identify drugs with an ASP that
             exceeded AMP by atlc t~'>t 5 percent in any quarter of 2011. and examine the impact of missing.
             and unavailable data on the Ol'G 's 2010 pricing compari so ns. The 2011 ove rview found that 58
             Healthca re Common Procedure Coding S}'llte.m (HCPCS) codes wilh complete data (i. e., AMP
             data W& available for all national drug codes (NDC) used in th~ ASP calculation for a code) rnct
             the 5 pe rcent threshold in at leas t one qua rter of 201 J. OI G ~tatcd that of these 51) codes, 24
             wo uld have been subject to the price substitution policy that CMS propo.~d in July 2012 . The
             applicati o n of the pi ice substitution policy to these 24 HCI"CS code~ would ha \·e reduced
             Medicare expenditUf('.'S hy an est1 ted $6.9 million over a four-qua rter period. Th is is a much
             11 tgher amo unt than tbe 2010 suvings esti mate.1 010 also found that anothe r 24 HCPCS code~
             with partial data ( i.e. , AM P data was only available fo r so of the NDCs used in the ASP
             l~t lculation for a l:nde) met the 5 percent threshold. and 010 determined th ai missing dat a for 15
             of the.c;e codes appe~red to have ltule influence on the outco me or th e com parison becau.~e the
             availabl e data !lccuratcly captured underlying market trt! nds 010 also noted that 55 HC PCS
             codes were excl uded fw m the compari son in one or more qultftcrl' due to missi ng or unavnilahlo.:
             AJ.,{Pdata.



              1
                CMS believes that the higher value may I><> IIS!iOciatcd witt H             J1620. a lmln<.'lk><hhltor <"Cmbinauoo that is
              ad nu nister•d by ll(b ulizer for the treatment of chronic airway di~ase. wlricn is a !ltavily utilized drug 	 S..vcrnl
              other h<:a:vily utihu.d drHg\, i ndlldllli, l<l!71 doceta.xel- an injc:c:table cbemotllcrapeutic: agen t, at"' tx.:eedcd th<~
              lhr<Shold lor al lt'.ISI one qu4rler. Wr, nute thai il ~.:~s been unusual fur heavllt u11II.Led drugs tn ex~ the
              "U ~Ii'ut(tiO thfl'"if'k.tld




Comparison of ASPs and AMPs; An Overview of 2011 (OEI-03-12-00670)                                                                                   27
Agency Comments (continued)




Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)   27
Agency Comments (continued)




Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)   28
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office.
                  Lauren McNulty served as the team leader for this study. Central office
                  staff who provided support include Kevin Manley and Debra Roush.




Comparison of ASPs and AMPs: An Overview of 2011 (OEI-03-12-00670)                           29
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
